U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

America Bankers Association v. National Credit Union Administration,
S.Ct.No. 19-1115

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 11,
2020, and placed on the docket on March 11, 2020. The government's response is due on April
10, 2020.
We respectftilly request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 11, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1115
AMERICA BANKERS ASSOCIATION
NATIONAL CREDIT UNION ADMINISTRATION

JOHN C. EASTMAN
THE CLAREMONT INSTITUTE CENTER FOR
CONSTITUTIONAL JTJRISPRUNCE
CHAPMAN UNIVERSITY
DALE E. FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
JEASTMAN@CHAPMAN.EDU
FRANK D. GARRISON
NATIONAL RIGHT TO WORK LEGAL
DEFENSE FOUNDATION, INC.
8001 BRADDOCK ROAD
SUITE 600
SPRINGFIELD, VA 22160
703-321-8510
FDG@NRTW.ORG
STEVEN D. GORDON
HOLLAND & KNIGT, LLP
800 - 17TH ST. N.W.
STE. 1100
WASHINGTON, DC 20006
202-955-3000
STEVEN.GORDON@HKLAW.COM

ROBERT A. LONG, JR.
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-6000
RLONG@COV.COM
JULIE JOHNSON MCLEAN
DAVIS BROWN LAW FIRM
215 10TH STREET
SUITE 1300
DES MOINES, IA 50309
515-288-2500
JULIEMCLEAN@DAVISBROWNLAW.COM
GLENN E. ROPER
PACIFIC LEGAL FOUNDATION
930G STREET
SACRAMENTO, CA 95814
GEROPER@PACIFICLEGAL.ORG

